No.

IN THE SUPREME COURT OF THE UNITED STATES

Lara Bush-Pensy, Petitioner
v.
Timothy Pflieger, Respondent.

On Petition for Writ of Certiorari to the Wisconsin Court of Appeals

PETITION FOR WRIT OF CERTIORARI

Timothy A. Provis
Counsel of Record
123 East Beutel Road
Port Washington, WI 53074
appealexpert@gmail.com
(414) 339-4458

Attorney for the Petitioner
LARA BUSH-PENSY

QUESTION PRESENTED
Whether basic First Amendment and Due Process freedom of speech is
infringed where a state court restrains a person's private email absent any
evidence the e-mail content was unprotected speech intentionally sent.

1

TABLE OF CONTENTS
QUESTION PRESENTED

1

TABLE OF AUTHORITIES

111

OPINION BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS INVOLVED

2

STATEMENT OF CASE ..
I. Proceedings Below ...
II. Factual Background

2
2
3

REASON FOR GRANTING THE WRIT

3

I. A decision by this Court will clarify whether private e-mail is
protected by the First Amendment........................................... 3
APPENDICES:
Appendix A - Opinion of Wisconsin Court of Appeal
Appendix B - Relevant State Statutes and Case

n

TABLE OF AUTHORITIES

Bachowski v. SaJamone, 139 Wis.2d 397, 407 N.W.2d 533 (1987)

3,4

Ex Parte Burton, 586 S.W.3d 573 (Tex. Crim. App. 2019)

5

Packingham v. North Carolina, 582 U.S.

4

, 137 S.Ct. 1730 (2017)

Reno v. ACLU, 521 U.S. 844, 117 S.Ct. 2329 (1997)

4

Statutes
§806.07, Wis. Stats.

3

§813.125, Wis. Stats.

2

in

No.

IN THE SUPREME COURT OF THE UNITED STATES

Lara Bush'Pensy, Petitioner
v.
Timothy Pflieger, Respondent

PETITION FOR WRIT OF CERTIORARI TO THE WISCONSIN
COURT OF APPEALS

Lara Bush-Pensy respectfully petitions for a writ of certiorari to review
the judgment and opinion of the Wisconsin Court of Appeals in this case.
OPINION BELOW
The opinion of the Wisconsin Court of Appeals is not published and
appears herein as Appendix A.
JURISDICTION
The decision of the Wisconsin Supreme Court denying review was
entered March 17, 2020. This Court's jurisdiction is invoked under 28 U.S.C.
§1257(a).

1

CONSTITUTIONAL PROVISIONS INVOLVED
United States Constitution, Amendment 1 provides, in pertinent partCongress shall make no law . . . abridging the freedom of speech . . .
United States Constitution, Amendment 14 provides, in relevant part;
No state . . . shall deprive any person of life, liberty, or property,
without due process of law; . . .
STATEMENT OF CASE
I. Proceedings Below
On January 10, 2018, respondent Pflieger (hereinafter “Tim”) filed a
petition for a harassment restraining order against appellant Bush-Pensy
(hereinafter “Lara”) under §813.125, Wis. Stats., in Door Co. Circuit Court
No. 18 cv 04. (5). The matter was resolved by a stipulation filed February 2,
2018 in which both parties agreed to have no further contact of any kind with
each other and Lara alone agreed any future contact with Tim “may be
deemed harassment.” (14-l, ^|3). Emphasis added.

The petition was

dismissed based on this stipulation. (13). The stipulation also provided either
party could file a motion to reopen the case should there be further
harassment. (14-1,^|4).

2

On March 12, 2018, Tim filed just such a motion to reopen (15) based
entirely on 3 mails. (16). The motion was heard on March 19, 2018 and
granted over Lara’s opposition. (40). A restraining order against Lara was
filed. (17).
On May 22, 2018, Lara filed a motion for relief from judgment under
§806.07, Wis. Stats., supported by a brief and affidavits. (2l)(22)(23)(24). The
motion was heard on August 1, 2018 and denied. (3l)(4l). The written order
denying the motion was filed August 8, 2018 (31).
II. Factual Background
Both circuit court judges found as a fact the emails were inadvertently
sent to Tim. (40-11 [line 23] - 40G2 [line 21] injunction judge)(4109 [line 9] 41:20 [line 11] §806.07 judge).

Neither judge nor the court of appeals

considered whether the injunction satisfied the requirements of the
governing case, Bachowski v. Salamone, 139 Wis.2d 397, 407 N.W.2d 533
(1987).
REASON FOR GRANTING THE WRIT
I. A decision by this Court will clarify whether private e-mail is protected
by the First Amendment.

3

The free speech problem arises here because the Wisconsin statute
allowing harassment restraining orders is interpreted by the state supreme
court as intended "to prevent repeated assaults on the privacy interests of
individuals without unnecessarily infringing on their freedom to express
themselves through speech and conduct."

Bachowski v. Salamone, 139

Wis.2d 397, 409, 407 N.W.2d 533 (1987), emphasis added.

Thus, the

legislative purpose of the requirement of intent was to aid in protecting the
basic constitutional guarantee of free speech. See discussion at 139 Wis.2d
408-410.

Counsel notes "Wisconsin's harassment statute was based

substantially on an New York statute." Id. at 408.
Now,

since

its

first

decision involving free

speech

and

Internet

communication, this Court has accorded protection of individual rights
paramount importance. Reno v. ACLU, 521 U.S. 844, 879, 117 S.Ct. 2329
(1997) ("The Government's assertion that the knowledge requirement
somehow protects the communications of adults is therefore untenable.").
And see Packingham v. North Carolina, 582 U.S.

, 137 S.Ct. 1730, 1736

(2017) ("[T]he Court must exercise extreme caution before suggesting that the
First Amendment provides scant protection for access to vast networks in
[the modern Internet.]"). Counsel invokes these concerns here.

4

But, as it appears there are few decisions involving free speech and
electronic mail between private parties, cf. Ex Parte Burton, 586 S.W.3d 573
(Tex. Crim. App. 2019)(lst Amendment free speech prohibited conviction of
man for sending allegedly annoying e-mails to ex-wife), counsel understands
the Court would not ordinarily find this issue ripe for its consideration.
Counsel submits there are exceptions to every rule and respectfully submits,
considering millions of private citizens are e-mailing each other every day
this case is one of the exceptions which proves the rule and so is worthy of the
Court's consideration.
CONCLUSION
Counsel respectfully submits the Court should grant certiorari and
hear this case for the reasoning presented here..
Dated: August 10, 2020

Respectfully submitted,

Timothy A. Provis
Attorney for Petitioner
BUSH-PENSY

5

